                                       NATIONAL SCIENCE FOUNDATION
                                       OFFICE OF INSPECTOR GENERAL
                                         OFFICE OF INVESTIGATIONS

                                 CLOSEOUT MEMORANDUM

Case Number: A07120067
                                                                    I        Page 1 of 1


    As part of our ongoing proactive review of proposals, two collaborative proposals1 were
    examined for potential plagiarism. Our plagiarism software identified some text
    copied into the proposals from a committee report. We learned from all the authors,
    one PI was responsible for all the copied text. That PI explained how the copied text
    inadvertently appeared in the proposal. We concluded the PI's explanation was
    understandable, but not exculpatory, so we examined several of the PI's other
    proposals for additional copying; we found no additional examples of inappropriately
    copied text.

    Given the small amount of copied text and the absence of copying in the PI'S other
    proposals, we conclude this copying does not rise to the level of research misconduct.
    Accordingly, this case is closed. We sent the PI a letter suggesting she be more careful
    in the preparation of her proposals.




       1   (redacted).
